<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 114-232]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 114-232
 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 20, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
  



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                               
                               
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE
   99-691 PDF              WASHINGTON : 2016       
 _________________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
       Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
      Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 20, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Reid, Hon. Harry, U.S. Senator from the State of Nevada, prepared 
  statement......................................................   293

                               LEGISLATION

Text of S. 1674, Long Island Sound Restoration and Stewardship 
  Act and S. 2143, Starr-Camargo Bridge and GSA Resolutions......    20
Text of the amendment to S. 659 offered by Senator Fischer.......    68
Text of the amendment to S. 659 offered by Senator Booker........    75
Text of the amendment to S. 659 offered by Senator Sullivan......    85
Text of the amendments No. 1 and 2 to S. 659 offered by Senator 
  Cardin.........................................................    91
Text of the amendment to S. 659 offered by Senator Merkley.......   112
Text of the amendments No. 1 to S. 659 offered by Senator Boozman   127
Text of the amendment No. 1 to S. 659 offered by Senator Boxer...   133
Text of the amendment No. 1 to S. 659 offered by Senator Vitter..   138
Text of the amendment No. 2 to S. 659 offered by Senator Boxer...   143
Text of the amendment S. 659 offered by Senator Crapo............   155
Text of the amendment to S. 659 offered by Senator Markey........   195
Text of the amendment to S. 659 offered by Senator Rounds........   199
Text of the amendment No. 4 to S. 659 offered by Senator Boxer...   204
Text of the amendment to S. 659 offered by Senator Barrasso......   212
Text of S. 1024, Great Lakes Retoration Initiative Act of 2016...   218
Text of the amendment to S. 1724 offered by Senators Inhofe and 
  Boxer..........................................................   228
Text of S. 659, In the Nature of a Substitute....................   273


                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, JANUARY 20, 2016

                                        U.S. Senate
                  Committee on Environment and Public Works
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Crapo, Boozman, Sessions, Fischer, Rounds, Sullivan, Cardin, 
Merkley, Gillibrand, Booker and Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order. We are 
going to be sensitive to what it takes for a quorum. It will 
take a quorum of 11 to report legislation and a quorum of 7 
needed just for the amendments.
    With the new session and competing schedules for our 
Senators, I will place my opening statement in the record and 
recognize Senator Boxer for her opening statement.
    [The prepared statement of Senator Inhofe follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thanks so much, Mr. Chairman. Nice to see 
everybody. Happy New Year, if I didn't get a chance to say 
that.
    I want to thank my Chairman for holding this markup today. 
There are many important bills on the agenda, including the 
Lake Tahoe Bipartisan Restoration Act, which I co-sponsored, 
and I am so pleased the Committee is considering this important 
legislation.
    I also like a lot of the other bills on the agenda.
    I do have deep concerns about another bill, known as the 
Bipartisan Sportsmen's Act. While there are definitely elements 
of the bill I support, I am disappointed we haven't made 
progress in addressing some of the concerns many of my 
colleagues have raised with me. We tried very hard, Mr. 
Chairman. We worked with your staff, but it doesn't look like 
there is common ground there. So I am very sorry about that, 
because there are so many amendments that we thought we could 
work on together to improve it.
    And I will speak about both of these bills in more detail.
    On the Lake Tahoe bill, just to say that it is a bill that 
I support. I joined Senators Heller, Feinstein, and Harry Reid 
in introducing it.
    Lake Tahoe, if you haven't been there, it is one of our 
most magnificent treasures, and it is emblematic of the natural 
beauty of California; one of the defining characteristics of 
our State. It is a huge tourist attraction. One of the things I 
always say, when you save the environment, you bring tourists, 
because there is nothing that tourists want to see more than 
God's creation unspoiled, and that is what we have there. The 
famous crystal clear waters should be preserved for our 
children and our grandchildren.
    Our bill helps ensure that the lake will continue to 
provide economic, recreational and ecological benefits for 
generations to come by authorizing projects to address invasive 
species, reduce wildfires, restore and maintain the lake's 
clarity, and protect threatened species and wildlands.
    The bipartisan bill would continue to strengthen efforts 
begun under the Lake Tahoe Restoration Act of 2000. So, again, 
I want to thank you so much.
    Now, on the Sportsmen's bill, known as the Bipartisan 
Sportsmen's Act of 2015, personally, I don't believe it lives 
up to its name. It does have a provision, such as 
reauthorization of the North American Wetlands Conservation 
Act, that I strongly support, but I have other concerns. And, 
again, we tried very, very hard to work with your staff. It 
wasn't like the highway bill or the WRDA bill. We just could 
not find common ground. And I appreciate that. I am not 
complaining about it; I am just sad about it because I think we 
could have made this a really good bill and had a smooth 
transition to the floor. But it is not going to happen. So many 
groups have raised problems with it, including conservation 
groups, environmental groups, and animal welfare groups.
    I ask unanimous consent to place in the record all of the 
letters I have received, and emails, against a lot of the 
provisions in the bill.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boxer. Thank you.
    For example, the bill creates a broad new exemption from 
the Toxic Substances Control Act with no ability to determine 
whether the products exempted are harmful to people. The bill 
also prevents the Corps from implementing common sense 
restrictions on firearms used on Corps properties, including on 
infrastructure that the Corps has determined is critical to 
homeland security. Imagine a terrorist with a gun, because they 
do get guns, wandering around our lands, our public lands, near 
dams and near projects that could, if it gets in their hands, 
could just be very, very dangerous.
    So I have offered four amendments to address the most 
serious concerns in the bill. I know Senators Cardin and other 
Senators have their own. I am hopeful we can adopt these. If 
not, I will have to oppose the legislation.
    With that, I would yield back to you, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Inhofe. Thank you, Senator Boxer.
    As I said, I will waive my opening statement.
    I see we have exactly 11 people here now, so I would like 
to go ahead and get these three things out of the way that I 
believe are not controversial, but we need to have a quorum to 
do it. They would be S. 1674 and S. 2143. They have no 
amendments, no opposition. I will entertain a motion to accept 
them en bloc. Is there a second?
    Senator Boxer. Second.
    Senator Inhofe. Those in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. They are accepted.
    And then the 32 GSAs, is there a motion to approve the GSA 
resolutions en bloc?
    Senator Boxer. So moved.
    Senator Inhofe. Second? Anybody?
    Senator Capito. Second.
    Senator Inhofe. All right. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. We accept the resolutions en bloc.
    [The referenced information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Now, we have several bills, as Senator Boxer said, on the 
agenda and, as usual, after I call up each bill I will ask 
members to seek recognition on the amendments that they might 
have and allow each member to call up their own amendments. We 
can have committee counsel available at the table to respond to 
questions that may come up. At the conclusion of the member 
statements and questions, we will vote on each amendment and 
then on whether to report each bill.
    Now, what I am going to do is go back and forth, Democrat, 
Republican. We have 25 amendments on the first bill that we are 
going to bring up, which is the Sportsmen's bill. So everyone 
is going to be heard. We are going to call for amendments at 
the conclusion of the explanation of each one. Some members 
have several of them.
    Now, I am aware of two specific conflicts which require 
Senator Fischer to chair the Commerce Committee hearing 
momentarily. Then Senator Booker is going to have a similar 
problem with the same committee. So what I would like to do is 
recognize Senator Fischer to make a statement concerning your 
amendment to S. 659. Then, when the appropriate time comes, 
Senator Crapo, who is also a sponsor of that amendment, will 
handle it on the floor.
    You are recognized at this time for any comment you would 
want to make.
    Senator Boxer. Just a parliamentary inquiry. Could we make 
sure that Senator Booker gets to offer his amendments?
    Senator Inhofe. Oh, yes. We talked to Senator Booker about 
that.
    Senator Boxer. Thank you so much. OK.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman. And my thanks to 
Senator Crapo for offering this very important bipartisan 
amendment in today's markup of the Sportsmen's Act. As vice 
chair of the Sportsmen's Caucus, I am proud to be an original 
co-sponsor of the amendment, which is identical to S. 1500, the 
Sensible Environmental Protection Act, that this committee 
approved on a bipartisan vote last August.
    The significant amendment addresses duplicative permitting 
of pesticides under FIFRA and also the Clean Water Act. This 
duplicative process creates unnecessary resource burdens and 
challenges for pesticide registrants and users, including 
private homeowners, businesses, ag producers, golf courses, 
local water authorities, and the sportsmen's community.
    Pesticides are critical for maintaining a healthy and 
viable environment by eliminating harmful and invasive pests 
that threaten outdoor activities of all kinds. For example, as 
a result of costly compliance regulations and the increase in 
Clean Water Act liability, many rural communities in this 
Country, and also small municipalities, are being forced to 
reduce or cancel their mosquito control programs. This places 
families at risk for devastating mosquito-borne diseases like 
West Nile Virus, yellow fever, and malaria.
    Additionally, managers in the national wildlife refuge 
system rely on pesticides to treat waterways for aquatic 
species that can choke waterways, wastewater, and detrimentally 
impact fish and other wildlife. State agencies have testified 
that these permitting requirements offer no additional 
environmental benefits because pesticide applications are 
already reviewed and regulated through a stringent FIFRA 
approval process.
    Again, this amendment clarifies that NPDES permits should 
not be required for the application of pesticides that are 
already approved by the EPA and authorized for sale, 
distribution, or use under FIFRA. Pest protection products 
benefit outdoor recreation enthusiasts by protecting and 
maintaining natural habitats, so I ask my colleagues to please 
support this amendment.
    Thank you, Mr. Chair.
    [The text of the amendment to S. 659 offered by Senator 
Fischer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Inhofe. Thank you, Senator Fischer.
    Senator Booker, you have the same conflict that she does, 
and if you would like to call up your amendment at this time.
    Senator Boxer. Parliamentary inquiry. Will we have a chance 
to respond to Senator Fischer's?
    Senator Inhofe. Oh, yes. She is not bringing it up. It will 
be brought up by Senator Crapo.
    Senator Boxer. Fine.
    Senator Inhofe. Senator Booker.
    Senator Booker. Chairman Inhofe, I want to thank you for 
being gracious this morning with the conflict that Senator 
Fischer and I have. I am her ranking for the subcommittee, so I 
will be chasing after her in a few moments to catch up. And I 
want to thank you for just being gracious in general about the 
amendment that I have before me, and obviously rank the Ranking 
Member, Senator Boxer, as well.
    I would like to discuss Booker Amendment No. 1, which would 
limit the use of body-gripping traps in the natural wildlife 
refuge system. Leghold traps have been banned in 90 countries; 
yet in the United States not only are these cruel traps not 
banned, they are currently allowed even on Federal wildlife 
refuges. Body-gripping traps are not just cruel, but they are 
absolutely indiscriminate. Too often the animals that are 
caught in these traps are not the animals being targeted.
    What types of non-targeted animals are being maimed and 
killed with gruesome routine happenings across our Country by 
these cruel body-gripping traps? Well, here are two 
illustrations. Right here you see the iconic species of the 
bald eagle maimed and killed in this first picture. At the time 
the picture was taken, the bald eagle was still listed as an 
endangered species.
    And not just wildlife, but really tragic to many American 
families is that our dogs are regularly caught and killed in 
these cruel traps. Here, tragically, is another example. This 
beagle here caught is named Bella, a 20-month-old hunting dog, 
who was killed in the steel jaw traps that were placed on 
public lands.
    More and more we are learning about the threat of these 
traps and what they pose to our pets. In just one State where 
data was collected, in Minnesota, there have been 112 dogs 
caught in these traps since 2012. Of these 112 dogs, 23 died 
and 50 of the dogs that were caught in these traps were on 
public land.
    Just today, on the Internet, a story was posted about an 
Akita named Darby in Montana who was caught for 5 days in a 
leghold trap before being found. Her leg was amputated just 
yesterday.
    Last May, Director Dan Ashe testified before this Committee 
as to the serious concerns with our bill to ban the use of 
body-gripping traps on wildlife refuges. After the legislative 
hearing, my office worked with the Fish and Wildlife Service to 
address all of those concerns that had been raised to alter 
this amendment so that it worked in coordination with the 
concerns that Dan Ashe brought. So Booker Amendment 1 includes 
changes requested by the Fish and Wildlife Service in order to 
preserve their discretion to use body-gripping traps as a last 
resort for management purposes, such as controlling invasive 
species in order to protect endangered species.
    Now, look, this is something that we know, 90 countries are 
banning it. But its history is long. Charles Darwin, in fact, 
called the leghold trap one of the cruelest devices ever 
invented by man, stating that few men could endure to watch for 
5 minutes an animal struggling in a trap with a torn limb. Some 
will wonder how such cruelty can be permitted to continue in 
these days of civilization.
    Charles Darwin said those words in 1863 and I echo them 
today. More than 150 years later, how can we permit such 
cruelty on our wildlife refuges in the United States of 
America?
    Before I end, I just want to thank, one more time, Senator 
Inhofe. He has been very gracious in working with my office on 
this issue; gracious to me personally, knowing my passion for 
this issue. I want to specifically thank him for introducing 
Inhofe Amendment 1, which will take at least a step in the 
right direction in requiring that the Fish and Wildlife Service 
post notice when the traps are being used and collect data on 
the non-target animals injured and killed.
    I am not going to ask for a vote today, as I talked with 
the Chairman. I will withdraw my amendment. But, dear God, I 
hope that we can continue to work together to focus on this 
issue, along with the bill's sponsors, in order to try to 
address what I think is a level of cruelty that is unbecoming 
of the greatness of our Nation.
    [The text of the amendment to S. 659 offered by Senator 
Booker follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Inhofe. Thank you, Senator Booker, and thank you 
for the passion that you are addressing here. I know what your 
concern is; you have expressed it before this Committee, and I 
will look forward to working with you between now and the floor 
time to see if something can be done. Thank you for your 
cooperation.
    Senator Booker. Thank you, Senator.
    Senator Inhofe. Senator Sullivan, you are the other one 
that had a special request, and we would like to recognize you.
    I will remind the members here that the text that we are 
working with right now on S. 659 is one that we distributed. 
All the changes we made were taking out those provisions that 
were already addressed in the NDAA, as well as the Consolidated 
Appropriations Act. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman, and thank you 
for your leadership on this bill. I appreciate the bipartisan 
way in which we have been focused on it.
    Mr. Chairman, my amendment that I am introducing this 
morning would prohibit the U.S. Fish and Wildlife Service from 
implementing a recently proposed rule that preempts State 
management authority that Alaska was actually promised under 
the terms of our statehood compact and further guaranteed under 
the Alaska National Interest Lands Conservation Act, ANILCA. 
And, Mr. Chairman, one of the reasons I have to leave early is 
I am going to hear a U.S. Supreme Court case on ANILCA that is 
going to start in about 45 minutes, a big, big case for Alaska.
    I think not many folks would dispute the fact that Alaska 
has probably the best management of fish and game of any State, 
of any country in the world. Yet, these proposed regulations, 
as currently written by the Fish and Wildlife Service, would 
fundamentally alter not only how we now manage wildlife refuges 
and the fish and wildlife habitats on them, but would also 
change the relationship of the Fish and Wildlife Service and 
the individual States from one of cooperation, which it should 
be, to subservience.
    With these new proposed regulations, which I want to 
emphasize to the Committee only focus on Alaska, Federal regs 
that only focus on Alaska, the Fish and Wildlife Service will 
administratively impose the irregulatory action, a regime that 
will preempt science-based management approved by the Alaska 
Board of Game in an open and public process. This is a perfect 
example of where an agency philosophically disagrees with 
Federal law, so they bypass the will of Congress and seek to 
regulate policy through their regulations, again, just on one 
State. Where the agency directors are so far removed from the 
original statutory language is what we refer to as Federal 
overreach at its worst.
    And no matter what anyone says about this regulation, it is 
not about stopping predatory control. The Fish and Wildlife 
Service uses predatory control. The Fish and Wildlife Service 
uses extensive predatory control and programs to eliminate the 
Arctic fox, to boost the Pacific Black Brant populations on the 
Yukon Delta Refuge, to kill mountain lions in Arizona to 
support the bighorn sheep, or the barred owl to enhance the 
survival of the spotted owl. They use these methods right now, 
the Fish and Wildlife Service does.
    This action of the Fish and Wildlife Service is simply 
about controlling resources in my State. The proposed rule is 
opposed by the State of Alaska. It is proposed by the Alaska 
delegation, the entire congressional delegation; it is opposed 
by the Association of Fish and Wildlife agencies representing 
the interests of all 50 States, and they have expressly opposed 
this in terms of many, many communities throughout the Country 
in terms of the hunting and fishing community. So I urge a yes 
vote on my amendment.
    But I would like to just mention one final thing, Mr. 
Chairman. As I mentioned, this, I believe, is the kind of issue 
where I would urge my colleagues to show deference to what is 
going on in a single State. So, for example, in my State, 
Democrats and Republicans, our Governor, who is an Independent, 
our lieutenant Governor, who is a Democrat, they are all 
opposed to this reg. And it is just one reg, the Federal 
Government focused solely on Alaska, where we have a tremendous 
record of managing fish and game.
    This would be similar, and I am going to use a few 
examples, my friend and colleague, Senator Boxer, if the 
Federal Government came out with a reg solely focused on the 
movie industry only in California; or, Senator Carper, the 
Federal Government coming out with a reg solely focused on the 
Delaware chemical industry; or, Senator Cardin, the Federal 
Government solely coming out with a reg focusing on Maryland 
crabs. In that instance I would expect, and certainly hope, 
that when you spoke on the issue, we would give you some 
deference here.
    This is, once again, and I am going to go to the Supreme 
Court here in 30 minutes on another issue where the Federal 
Government, in regulations, is solely focusing on trying to 
control my State, and I would ask my colleagues on both sides 
of the aisle for a yes vote on an issue which is enormously 
important to the State of Alaska.
    Thank you, Mr. Chairman.
    [The text of the amendment to S. 659 offered by Senator 
Sullivan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Inhofe. Questions to Senator Sullivan? Others who 
want to be heard?
    Senator Boxer. Yes, I do.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. We have a lot of wilderness in our State, we 
have a lot of marine sanctuaries in our State, and we like it 
when we work with the Federal Government to tailor rules and 
regulations to our specific State. We appreciate it, because if 
you just do it for everybody, you may not answer.
    Now, my understanding of this rule is that it is out for 2 
weeks, and there is all kinds of time for public hearings. 
There is all kinds of time to weigh in. We are talking about 
wildlife refuges that are not owned by the State of Alaska, but 
owned and operated by the people of America, because we are one 
Nation under God. We think it is very important. And this rule 
may have to change. You could persuade me that maybe they are 
protecting wolves too much or protecting bears too much, it is 
fine. But the point of a refuge is to ensure that we protect 
species.
    So, you know, I think the proposal aims to more effectively 
engage the public by broadening notification outreach methods, 
ensuring consultation with Tribes in the State, and allowing 
for additional opportunities for the public to provide input. I 
honestly think to do this, I don't remember really ever doing 
this in this Committee, stopping a rule before it has even been 
issued and stopping the rulemaking process. Again, it just 
started 2 weeks ago. The comment period just started. I think 
we ought to let this run its course. And the Senator may be 
able to well influence me to say, Barbara, take a look at this, 
they go too far in protecting the bears. I am very open to it.
    But I would just argue this. You know, we see this issue 
popping up all the time, people taking over a Federal area, 
saying you have no right to tell us what to do, etcetera, 
etcetera. It is a big issue. And my answer to it is that this 
is one Country; that we all prosper together, we all do well 
together when we protect God's creations; and if we overreach 
as a Government, that is bad, and we should pull in.
    So I am hoping the Senator will withdraw this amendment. I 
would hope we could work together. I will work with him if it 
is an overreach and overstep, but I don't think we should stop 
this in its course. I think it is precedent-setting and I don't 
think it is right.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Sullivan. Mr. Chairman, if I may respond very 
quickly. And I appreciate Senator Boxer's comments, but there 
is a fundamental issue here. The statehood compact by which 
Alaska became a State, the Alaska National Interest Lands 
Conservation Act, what we call in Alaska ANILCA, all of these, 
granted by the Congress, authority for the State to manage our 
fish and wildlife throughout the entire State, Federal and 
State lands. That is what we were granted by Congress. So this 
is just an attempt through regulations to limit State 
management of the State of Alaska lands, State and Federal, and 
that was what we were promised, that is what is in Federal law.
    So I agree with Senator Boxer in that, yes, there is a big 
principle at stake here: the management of Alaska's lands, 
State and Federal, which were guaranteed by Congress to be 
managed by State officials is now being usurped by this reg. So 
I am going to move forward and respectfully ask for a vote on 
my amendment.
    Senator Boxer. If I could respond very briefly.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you so much.
    I respect that totally. I just want to say that my 
understanding from my legal team here is that there was nothing 
in those agreements that overrode Federal law to conserve and 
preserve our wildlife refuges. It may be this thing winds up in 
the court. I just think what we are doing here is not going to 
fly. It is not going to go. The President will veto the thing, 
if it gets that far, and I think that it probably won't even 
get that far. I just hope we don't stop rules before they are 
completed, because you may be satisfied. What could happen is 
as a result of the outpouring of comments, it could be they 
decide to take another crack at it or change it or pull back. I 
just hate to see us act in this way prematurely.
    The Senator may be right in his feelings, and I really 
respect him and like him and the rest, but I do think that we 
should let this run its course first. But that is the last I 
will say and we will be governed by the vote.
    Senator Inhofe. Thank you, Senator Boxer.
    My feeling is the most compelling argument is the rule that 
is proposed is opposed by the State of Alaska, by the Democrats 
and Republicans there, the delegation, and I would urge a yes 
vote.
    Do you move your amendment?
    Senator Sullivan. I move a vote on Sullivan Amendment No. 
1.
    Senator Inhofe. Is there a second?
    Senator Vitter. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. Let's go back and repeat that.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Capito. Aye.
    The Clerk. Mr. Cardin?
    Senator Cardin. No.
    The Clerk. Mr. Carper?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. No.
    The Clerk. Mr. Markey?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. No.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan?
    Senator Sullivan. Aye.
    The Clerk. Mr. Vitter?
    Senator Vitter. Aye.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chair, the yeas are 11, nays 9.
    Senator Inhofe. And the amendment is agreed to.
    Yes, Senator Cardin. We will go back and forth, as I said 
in my opening remarks, so we will recognize Senator Cardin.
    Senator Cardin. I appreciate that. As I explained to the 
Chairman privately, the Senate Foreign Relations Committee is 
having a hearing on Iran, and I am ranking on that committee, 
so I will be going back and forth.
    Mr. Chairman, I filed five amendments. I am going to offer 
two of those amendments at this time, and let me explain that.
    The Cardin Amendment No. 1, which reauthorizes the 
Neotropical Migratory Bird Conservation Act through Fiscal Year 
2020, this has been taken up individually by this Committee and 
has been, I believe, unanimously approved, that deals with the 
neotropical migratory birds that are critically important to 
our environment.
    Cardin Amendment No. 2 reauthorizes the National Fish and 
Wildlife Foundation. I know this has been approved previously 
by the Committee, and I would urge they be included.
    I would like to speak to Cardin Amendment 3, 4 and 5. I 
will not be offering them, but I think they are important. I 
bring them up. The reason I am not going to be offering them, 
quite frankly, Mr. Chairman, is I don't believe the votes are 
here to pass them, and our staffs have worked very 
constructively to try to figure out how we can get changes 
here.
    Amendment 3 would authorize the U.S. Fish and Wildlife 
Service to recover response costs and damages for individuals 
and entities that damage a national wildlife refuge. This is 
identical to the authority that our National Park Service has 
and it is basically a practical way in which our wildlife 
refuges can get the responsible parties that have caused damage 
the funds to repair those damages. It has worked in our 
national park system and it is critically important we include 
that in our refuge under U.S. Fish and Wildlife Service.
    I hope we can work this out to the satisfaction of the 
members of this Committee before the bill reaches the floor, 
because I do think it is important that we get this done in 
this Congress.
    The other two amendments that I am offering deal with some 
of the provisions that are already in the bill that are going 
to need to be addressed if this bill is going to be able to 
make it enactment into law. One would give the Environmental 
Protection Agency the ability to at least investigate the 
impact of lead ammunition or sports fishing equipment and 
components so that at least we have the information. I think, 
at a minimum, we have to be able to allow the agency that has 
the responsibility here to be able to do its public service and 
inform the public as to risk issues.
    And Cardin 5 would allow the Secretary of the Army to be 
able to make determinations that are necessary for protection 
of infrastructure and homeland security as it relates to the 
additional authorizations that are put on this bill in regards 
to the use of firearms.
    I think both of those are common sense ways to deal with an 
overreach that is in the underlying bill and, quite frankly, if 
these amendments are approved, I think we have a pathway, 
although I am concerned about some of the additional additions 
we are adding to the bill today, but I think that the bill that 
was originally submitted, if these amendments were approved, I 
think you have the pathway for consideration on the floor of 
the U.S. Senate that will lead to the type of consensus that is 
going to be necessary to have floor time and to get this bill 
to the President's desk.
    So these amendments are being offered in a way so that we 
can get to the finish line. As I told the Chairman, as I told 
the Ranking Member, we would like to get a sportsmen's package 
to the President for signature. We really would. And these 
amendments are offered in that regard so that we can in fact 
get a type of bill that can have the support necessary to get 
it enacted into law.
    So, Mr. Chairman, with your consent, I would offer en bloc 
Cardin Amendment 1 and 2 and ask for its consideration.
    [The text of Amendments No. 1 and 2 to S. 659 offered by 
Senator Cardin follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Inhofe. All right, thank you, Senator Cardin.
    Did you want to be heard?
    Let me just make one comment on Cardin No. 2. This 
reauthorizes the National Fish and Wildlife Foundation for 5 
years as opposed to doing it 1 year at a time. I would urge a 
yes vote on Cardin No. 2.
    And on Cardin No. 1, the objection that we hear is that it 
does set aside $6.5 million each year for 5 years. However, 
that would also have to be appropriated at that time, and very 
likely that would not be, so I am not going to object to that.
    Anyone else want to be heard?
    Senator Boxer. Yes, Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Well, I am pleased you won't be objecting. I 
would just say that Cardin No. 1, which reauthorizes the 
Neotropical Migratory Bird Conservation Act, is very important. 
It is a small little gem and it encourages habitat protection, 
education, research, monitoring, and capacity building to 
provide for the long-term protection of these migratory birds. 
And I just wanted to thank Senator Cardin for his work on both 
of these and will put the rest of my statement in the record, 
if it is OK with you.
    Senator Inhofe. That is fine.
    Senator Boxer. OK.
    Senator Inhofe. Without objection.
    [The prepared statement of Senator Boxer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Inhofe. Let me just make one comment.
    Senator Cardin, we are wanting to take these up one at a 
time. There may be some. So, if you don't mind.
    Senator Cardin. Not at all. I would then move Cardin 
Amendment No. 1. And let me just make one final point. One of 
the neotropical birds is the Baltimore Oriole, and it needs all 
the help it can get.
    [Laughter.]
    Senator Inhofe. There is a motion to accept Cardin 
Amendment No. 1. Is there a second?
    Senator Boxer. Second.
    Senator Inhofe. There is a second.
    All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it.
    Now, Senator Cardin, you are recognized.
    Senator Cardin. I offer Cardin Amendment No. 2, which is 
the National Fish and Wildlife Foundation reauthorization.
    Senator Inhofe. Is there a second?
    Senator Boxer. Yes.
    Senator Inhofe. There is a second.
    All those in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it. Both amendments, 1 and 2, 
are recognized.
    We now move over to the Republican side. Who wants to be 
heard on an amendment? Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. I call up the 
Crapo-Carper-Fischer Amendment No. 1 regarding pesticides over 
water.
    Senator Inhofe. All right. You are recognized.
    Senator Crapo. Mr. Chairman, the Committee should be very 
familiar with this amendment, so I won't go into a lot of 
detailed background, and Senator Fischer has already made some 
remarks.
    But it is based on Senate Bill 1500, the Sensible 
Environmental Protection Act, which the Committee acted on last 
summer. We want to take a moment to note its connection to the 
issues covered in this Sportsmen's Act, such as public lands, 
outdoor recreation, fish and wildlife, and why that bill is an 
appropriate measure to discuss this issue.
    Pesticides are a tool utilized by property owners, land and 
wildlife managers to combat invasive species, manage 
vegetation, and promote healthy forests, range lands, and 
waterways which provide habitat for fish and wildlife. Examples 
of pesticide application benefits impacting the Sportsmen's Act 
issues include invasive pests where aerial insecticide 
applications have been used to control and eradicate invasive 
species such as the Douglas-Fir Tussock Moth and the Asian and 
European gypsy moths. If uncontained, these pests can defoliate 
entire forests, which impact wildlife habitat and stream 
temperatures that are vital to a number of our fish species.
    Vegetation management. Aquatic herbicides are one tool used 
to control vegetation in riparian habitats, which is important 
to maintaining healthy ecosystems for water fowl, migratory 
birds, and promotes robust hunting and outdoor recreation 
experiences.
    Invasive plants. Federal land management agencies use 
pesticides to combat invasive weeds, such as cheatgrass, to 
encourage the reestablishment of native plants. These efforts 
help promote healthy range land habitats and the wildlife that 
depend on them.
    It is important to remember that a pesticide may not be 
used in or near water unless EPA approved labels are available 
and specifically states that it is OK to do so. The EPA 
provides this labeling requirement and the requirements for 
application of these pesticides under FIFRA, a full statutory 
authority regime which is currently being effectively 
administered by the EPA. Requiring an NPDES permit for these 
same types of pesticide applications is just another layer of 
needless regulation.
    And, by the way, it is one the EPA doesn't even agree with. 
The EPA has said that they are adequately and safely managing 
these issues through FIFRA and do not need the NPDES 
requirements. This diverts budgets, staff time, and agency 
resources to activities that do not improve environmental 
health, hunting or fishing opportunities, and could better be 
spent executing on-the-ground management objectives.
    I encourage all the members of the Committee to support 
this amendment.
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Well, Mr. Chairman, with all due respect to 
everyone who supports this, it is an amendment in search of a 
problem. The EPA does not support this amendment. Let's get 
that straight. Today, under the rules, if you have an emergency 
and you have pests in a forest, you can spray and get a permit 
after. This is the least bureaucratic system I have seen. And 
we are not aware of anyone really complaining.
    So here is what we have right now. You have to get a Clean 
Water Act permit if you are going to spray pesticides that wind 
up in a body of water. Now, you would think if we learned 
anything from Flint, Michigan, it is that we don't allow more 
contamination in bodies of water, where our kids can get 
horrific brain damage. This is ridiculous. This is terrible 
that the Environment Committee would be doing this. What is 
this, the pollution committee? This is outrageous.
    Now, when pesticides get into waterways where our kids swim 
and waterways that provide drinking water for our families, we 
know we are exposing our people to substances that are known to 
be toxic. You know, we are sitting here as if this is some 
academic exercise, when we see what has happened in Flint, 
where people are going to go to jail because of what happened, 
and our first activity responding to that is this amendment. It 
shocks me. It shocks me.
    Pesticides have been linked to a variety of human health 
impacts. The easy ones: irritation of the skin and eyes. Oh, 
maybe that is not so bad. But what about the fact that there 
can be neurotoxins that impact the nervous system, impact 
during the gestation and adolescent development of children, 
disrupt the hormone or endocrine system? And some have even 
been identified as carcinogens. That is the impact to people. 
And it doesn't even touch on what it does to the fisheries.
    Over a billion pounds of pesticides are used annually in 
the U.S., and the USGS has found that 61 percent of 
agricultural streams and 90 percent of urban streams were 
contaminated with one or more pesticides. Pesticide pollution 
is a problem, so what does the Environment Committee do first 
thing after Flint? Oh, you don't have to get a permit; just 
spray your hearts away. I don't get it. This public health 
safeguard has been in place since 2011. Contrary to the fears 
of industry, it has not stopped the use of pesticides. But it 
does ensure that pesticides are used in a responsible way so 
that our streams, our waterways where our kids swim and where 
they drink the water are not contaminated.
    You know, again, if it is an emergency, you can spray and 
get the permit after. We should not be interfering, in light of 
Flint in particular, with safeguards designed to protect public 
health. I hope that we can either withdraw this thing. I think 
it is an embarrassment to this Committee. I know I am going to 
talk about it at home. I just don't see why this Environment 
Committee would do this.
    And, again, I will close on this, I know I do go on, but I 
have never had a constituent in all my years, I have been in 
public life for 40 years in elected office, come up to me and 
say the water is too pure, the air is too clean. On the 
contrary, they say, Barbara, just make sure you protect us; we 
don't want to be in a situation where we don't know what our 
kids are exposed to. And, with that, I would hope we would 
withdraw this thing, work on it before we get to the floor, to 
make it a big issue, and I don't think that is a happy option.
    Senator Cardin. Mr. Chairman?
    Senator Inhofe. Senator Cardin.
    Senator Cardin. I want to concur with Senator Boxer's 
observations. If this amendment is on the bill, if it gets on 
the floor, it will probably be the centerpiece of the 
discussion, not the sportsmen's package. It will take it over. 
There have been numerous efforts over the last 2 years to get 
this bill passed. This is not a new issue that is coming up.
    And it is interesting, since we have seen this regulatory 
framework, as Senator Boxer has pointed out, there has been 
zero complaints. It is working. The current system is working. 
We are not hearing from the stakeholders that there is a 
problem. So what we are doing is opening up a huge hole in 
protection that could very well be abused and cause a 
significant public health issue, and we are not solving a 
burdensome problem for the stakeholders because they don't have 
one today.
    So, look, I really do, I couldn't agree more with Senator 
Boxer. If this gets on the bill, this bill is going to have a 
serious problem, and I think people need to understand that.
    Senator Crapo. Mr. Chairman, could I respond?
    Senator Inhofe. Senator Crapo.
    Senator Crapo. This is really not an issue or a problem 
that is seeking for a solution, a non-existing problem. And if 
my colleagues are not hearing about it, then I don't know which 
stakeholders they are listening to. This is becoming a huge 
problem across the Country. We have had bipartisan support for 
fixing this now for several years. And you are right, we 
continue to run into these objections, but these objections are 
not founded. The fact is that with this amendment we are trying 
to reestablish the Environmental Protection Agency's original 
policy regarding the applicability of FIFRA and the Clean Water 
Act.
    And to answer legal questions concerning the two statutes, 
the EPA itself issued a regulation in 2006 stating that the 
Agency did not interpret FIFRA-compliant pesticide applications 
as discharges and pollutants, and that such applications did 
not need a permit. The system up until then had operated fine 
and there was no problem needing this solution that has been 
forced on it.
    More recently, on February 16, 2011, at a joint hearing 
held by the Subcommittees of the House Agriculture and 
Transportation Committees, Dr. Steven Bradbury, the Director of 
the EPA Office of Pesticide Programs, testified that FIFRA 
fully protects water resources. I am going to repeat that: 
FIFRA fully protects water resources. This is his quote from 
that hearing: ``In sum, EPA uses its full regulatory authority 
under FIFRA to ensure that pesticides do not cause unreasonable 
adverse effects on human health or the environment, including 
our Nation's water resources,'' said Dr. Bradbury.
    This is an issue where the EPA has made it clear that there 
is a solution seeking a problem, rather than the other way 
around. I want to reiterate that a pesticide may not be used in 
or near water unless the EPA has approved the label under FIFRA 
and it specifically states that it is OK to do so. These are 
the types of pesticides used and applications we are talking 
about with this amendment.
    The notion that pesticides not approved for use in or near 
aquatic habitats are being released into water without 
regulation prior to the 2009 court ruling is simply not true.
    Senator Boxer. Mr. Chairman, if I could respond.
    Senator Crapo. Well, I do have just a little more to say, 
but I would be willing to do it after you.
    Senator Boxer. Sure. No, no.
    Senator Inhofe. I suggest that you go ahead, because he 
needs to close debate.
    Senator Crapo. OK, let's do that.
    Senator Boxer. You got it.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. You got it.
    Let's be clear about FIFRA. FIFRA is a labeling 
requirement, period. That was it. And guess how this came 
about? A lawsuit by the people of our great Nation who said, 
wait a minute, we have a Clean Water Act and we have no 
protection from these pesticides. And the courts ruled it and 
it changed everything. And what you are doing here is ignoring 
that history, making people think that EPA has all this power 
to regulate, when all they do have power is to put a label on 
the pesticide.
    This is serious stuff. This is straight out of somebody's 
nightmare following up on Flint. Unbelievable. You see what is 
going on over there with children, and this is saying now that 
we will go back to where they just have to put a label on the 
pesticide so we know what is poisoning our children. No, that 
is not going to happen. It is not. It is not going to happen, 
because a lot of us are going to stand on the floor who would 
otherwise support that Sportsmen's bill and say this is an 
outrage.
    I think you are making a big mistake, Mr. Chairman, to 
allow this to move forward. Now, knowing you, I don't think you 
shy away from a fight, and you will probably let it go. But I 
just, because you are my dear friend, want you to know the 
strong feelings that those of us have who have watched this 
thing in Flint, where kids may never recover, may never 
recover. And it was done to them by a government that said we 
can't stand regulation. All right? That is what happens, folks. 
There are prices to be paid. Usually you don't find out about 
it for 20 years, but we found out about Flint.
    So what we should be doing here is the opposite of what we 
are doing. How do we strengthen our laws to protect our 
families? How do we make sure that our children aren't 
poisoned? Instead, what are we doing? We are taking away a 
program that works fine and we are going back to a program that 
was so weak that it caused a lawsuit where the courts ruled 
under the Clean Water Act we have to do more. And getting a 
permit before you spray a pesticide that could be harmful does 
not seek to me to be outrageous.
    And if you go out in the street, I don't care whether it is 
in Idaho or California or right here, and say before people 
spray pesticides, do you think that somebody ought to look at 
the situation to make sure that it can't really get in the 
water and poison the fish, poison the children, poison our 
families? I think most people would say, you know, I think it 
is worth being a little careful here.
    So, again, I speak from my heart, as you know I always do, 
just because I don't want you to be blindsided, Mr. Chairman, 
when we come down in full force and say we are not taking up 
any bill that would allow us to put poisons into waterways.
    Senator Inhofe. Thank you, Senator Boxer.
    We will recognize Senator Crapo to conclude debate.
    I would only observe that this has been driven by a 
partnership. I have always been a real fan of the partnership, 
so we have people, Federal, State, local agencies, 
conservations, sportsmen's organizations, private landowners, 
and business sector. So I will urge a yes vote.
    Senator Crapo. Well, thank you, Mr. Chairman. I would just 
say, again, as I said just a moment ago, all of these problems 
that the opponents of this amendment are bringing up are not a 
result of pesticide applications under FIFRA. The fact is that 
EPA itself testified that the waterways, because of FIFRA 
activities, are fully being protected. So one can bring up 
issues from somewhere else and say that that justifies some 
kind of an increased government regulatory system being imposed 
on another entire aspect of our conduct of our pest management, 
but it doesn't make it true.
    And the truth is that I think we all agree on the nature of 
the importance of protecting the environment and human health. 
Pesticides should only be used when necessary, and applicators 
must follow all State, Federal, and local laws that have been 
established to accomplish that.
    FIFRA is not just a labeling requirement; there are 
requirements in terms of the conduct and application of 
pesticides under FIFRA. And my concern is that the 
overregulation of these applications can have unintended 
consequences.
    And I will conclude with this. It has been said several 
times today that nobody has a problem with the new regime, 
there are no problems being caused. That also is untrue. It is 
becoming a huge problem, which is why we have bipartisan 
support for this, and have had bipartisan support for years. 
And I could go through examples. I will just use one. I have 
pages of examples here.
    But just a few years ago, forests in Northern Idaho, my 
State, had an invasive moth outbreak that defoliated thousands 
of acres of trees. And while private landowners initiated a 
treatment, State forestry managers opted to not treat 
neighboring lands specifically due to the NPDES requirement 
because of the increased regulatory load. And the increased 
regulatory burden that is being put into place, the activities 
that we need to be engaged in for the kinds of invasive species 
and pest management that I described earlier are not happening, 
and the costs are being driven up and the impacts are big. That 
is why this issue is so important.
    I think this is one of the biggest issues that the Farm 
Bureau is focusing on in this Congress. It is a big issue for 
our sportsmen and for people across this Country, and for those 
who want to use these beautiful resources that we have in our 
Country and want them to be able to be managed properly. This 
is a critical issue that we need to address.
    Thank you, Mr. Chairman.
    Mr. Inhofe. Thank you, Senator.
    I would observe that this is bipartisan; Senator Carper, 
Senator Coons, Senator Donnelly, and others.
    What do you do with your amendment?
    Senator Crapo. Mr. Chairman, I do move the amendment.
    Senator Inhofe. Is there a second?
    Senator Vitter. Second.
    Senator Inhofe. There is a second. The Clerk will call the 
roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. Yes.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Capito. Yes.
    The Clerk. Mr. Cardin?
    Senator Cardin. No.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. No.
    The Clerk. Mr. Markey?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. No.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Vitter?
    Senator Vitter. Yes.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 12, the nays are 8.
    Senator Inhofe. And the amendment is agreed to.
    I will go to the Democrat side for those wanting to propose 
amendments. Yes, Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman. I am 
going to speak to an amendment, but I am not going to ask for a 
vote on it. Specifically, I wanted to address Merkley No. 1, 
the Columbia River Basin Restoration Act.
    This is an Act which has not had a hearing yet. It is 
related to a conversation on how we go about having an effort 
to address long-time chemical contamination of the Columbia 
River. This is parallel to the bills that are already law for 
the Chesapeake Bay, for the Great Lakes, for the Gulf of 
Mexico, for Lake Champlain, Long Island, Pacific Islands, Puget 
Sound, San Francisco Bay, South Florida. In other words, every 
great body of water in the Country except the Columbia.
    So I would like to work with my colleagues, Senator Crapo 
and others, who have States that are on the Columbia River, 
find a way that this bill could have the kind of flexibility 
that might suit different circumstances in different States, 
but still enable those States that wish to follow the model so 
effectively pursued on great waters across the Country apply 
that assistance to the Columbia River.
    People may be surprised to find out that more water rolls 
through the Columbia River than any other river in the Country, 
including the Mississippi. Mississippi is much wider, but a lot 
slower and a lot shallower.
    Senator Inhofe. A lot warmer.
    Senator Merkley. And the Mississippi is a lot warmer.
    So I would appreciate working with the Chairman to have a 
hearing on this at some point in the future.
    [The text of the amendment to S. 659 offered by Senator 
Merkley follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Inhofe. Thank you, Senator Merkley.
    On the Republican side? Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I would like to 
call up my amendment, Boozman No. 1. This amendment is 
identical to legislation that the Committee passed by voice 
vote in the 113th Congress. Senator Boxer was very helpful in 
her support in marking it up at that time. The purpose is to 
encourage joint cooperative management at Corps of Engineers 
recreational sites and facilities.
    Current law enables the Corps to enter into cooperative 
agreements with non-Federal public and private entities to 
provide for operation and management of recreation facilities 
and natural resources at civil works projects. These 
partnerships help ensure that Corps recreation facilities are 
well maintained and remain open. These agreements also ensure 
that natural resources are conserved and protected.
    For many years, the Corps used its existing authority to 
allow partners to collect and reinvest user fees. However, 
based on a 2013 legal review, the Corps determined that this 
practice exceeds existing statutory authority. Unfortunately, 
some recreation sites and facilities are difficult, if not 
impossible, to maintain or keep open without partnership 
support.
    The 2013 ruling is hurting communities and it is 
discouraging the friends and partners and volunteers who 
contribute so much to the improvement of Corps recreation 
sites. This amendment would reestablish the positive 
partnerships that were built over many years. The Corps values 
these partnerships and would like to strengthen them and 
maintain them. This amendment restores the practice that 
existed before the September 2013 guidance was issued.
    I look forward to working with the Committee on this issue 
as the legislation moves forward, and I would ask for my 
colleagues' support.
    If the Chairman is willing, I would be happy to move the 
amendment by voice vote.
    [The text of Amendment No. 1 to S. 659 offered by Senator 
Boozman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. First, Senator Boxer.
    Senator Boxer. I wish to speak in support of the Boozman 
amendment. I won't take the Committee's time to say why. I 
think he speaks for me. Most important thing is this amendment 
restores an important source of funds for the operations and 
maintenance of civil works, and I think it is important and I 
am proud to support it.
    Senator Boozman. Thank you, Senator Boxer.
    Senator Inhofe. And I might also just make a comment to get 
in the record. We have done this before. Any time you have the 
private sector willing to put up resources to take care of a 
public need, it is a good idea. So I think this carries on that 
good idea and would be in strong support if it.
    Before we ask for a voice vote, does this mean you would 
not be offering your second amendment?
    Senator Boozman. No, sir, just the first.
    Senator Inhofe. Yes. All right, fine.
    Senator Merkley. Mr. Chairman.
    Senator Inhofe. Oh, yes, Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman. I wanted to speak 
in support of this. We have an example in my State, a 
partnership between Sherman County and the Army Corps, in which 
the Corps no longer can afford to operate a park and boat 
landing the way they have in the past. It would make a lot of 
sense for the county to be able to take over this valuable 
asset to the community or receive the fees back from the 
operation. We have run into red tape on this. I think this 
amendment would help in this specific situation and I am very 
supportive of the amendment.
    Thank you.
    Senator Inhofe. Thank you.
    Senator Boozman, do you move your amendment?
    Senator Boozman. I ask to move the amendment.
    Senator Inhofe. Second?
    Senator Vitter. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it and it is agreed to.
    On the Democrat side, amendments?
    Senator Boxer. Not for this.
    Senator Inhofe. Oh, all right. Senator Boxer, which 
amendment do you have?
    Senator Boxer. OK, I call up Boxer Amendment No. 1.
    Senator Inhofe. OK, Boxer Amendment No. 1.
    Senator Boxer. This amendment modifies Section 2, which 
creates a new permanent exemption from the Toxic Substances 
Control Act for a wide array of sport fishing equipment. 
Section 2 prevents the EPA from ever acting to address a 
dangerous chemical, such as lead, in fishing equipment, even if 
the science is clear that it is harming people's health. Again 
we get back to lead and the problem that lead causes, 
particularly in children.
    So instead of burying our heads in the sand and ignoring 
potential impacts to children and families, I think we should 
make sure that experts can continue to look at this issue and 
alert us if any concerns arise.
    So what I do is I just hone in on lead and say lead is not 
exempt from TSCA and everything else is exempt, but we want to 
make sure that we have a study to make sure that that is not 
harming our kids. I tried very hard to work with the Majority 
to get this change. Couldn't do it. I don't anticipate we are 
going to get it, but, again, in light of Flint, I think this is 
another critical issue, so I am going to ask for a recorded 
vote on this amendment, knowing full well I don't think I have 
cracked the barrier on the other side.
    [The text of Amendment No. 1 to S. 659 offered by Senator 
Boxer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. With that last comment, I won't make my 
comments, then.
    Senator Boxer. I speak for you in saying that?
    Senator Inhofe. Yes.
    Senator Boxer. I thought so.
    [Laughter.]
    Senator Inhofe. All those in favor of Boxer No. 1 say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Boxer. I ask for a recorded vote.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. No.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 2.
    Senator Inhofe. Then the amendment is not agreed to.
    Senator Vitter.
    Senator Vitter. Mr. Chairman, I have two amendments on the 
agenda, but Vitter Amendment No. 1 I am going to withdraw. We 
are still working on a few points regarding that with members 
of the Committee. Excuse me, Vitter Amendment No. 2 I am going 
to withdraw. Vitter Amendment No. 1 I will take up.
    This concerns the regulation of fisheries, particularly 
fisheries in the Gulf. There is a very odd situation in the 
Gulf, which is that Texas and Florida State regulation go out 
to nine nautical miles, but everything in between, Louisiana, 
Mississippi, Alabama, only go out to three nautical miles. This 
would equalize that at nine nautical miles. This was done 
specifically in the omnibus bill. Some Shelby language directly 
to this effect was included. It is strongly supported in the 
Gulf. I don't think it was controversial in that context.
    This amendment would simply extend that permanently, since, 
by nature of it being an appropriation bill, the language in 
the omnibus would only have effect for one fiscal year. So I 
would offer this amendment, which has strong support in the 
Gulf.
    [The text of Amendment No. 1 to S. 659 offered by Senator 
Vitter follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Yes. And I would only add that, from my 
experience down in Texas, this offers the recreational 
fishermen opportunities they have in Texas they don't have in 
Louisiana, Mississippi, and Alabama.
    Others want to be heard?
    Senator Boxer. Mr. Chairman.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. I don't have a fish in this fight, but I 
will tell you who does, the Commerce Committee. They are very 
disturbed because it is under their jurisdiction; NOAA manages 
these species. And I have been asked by Senators Cantwell and 
Nelson to ask Senator Vitter not to offer it here. They are 
going to complain about it when we get this to the floor. It is 
up to him, but I would urge a no vote because our colleagues 
are saying it is damaging to take NOAA out of this equation.
    Senator Inhofe. Thank you. Others want to be heard? Senator 
Vitter?
    Senator Vitter. I would simply close by saying for an aye 
vote. It has great consensus support in the Gulf. It has in the 
Omnibus, which was obviously done by the Appropriations 
Committee, not the Commerce Committee. It was not highly 
controversial there, and I would urge an aye vote.
    Senator Inhofe. Is there a second?
    Senator Crapo. Second.
    Senator Inhofe. There is a second.
    Senator Vitter. Excuse me. Let me urge an aye vote as 
modified. There was a modification made this morning to it, 
which I think everyone has.
    Senator Inhofe. And there is a second. The Clerk will call 
the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Cardin?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Carper?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. No.
    The Clerk. Mr. Markey?
    Senator Markey. No.
    The Clerk. Mr. Merkley?
    Senator Merkley. No.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Vitter?
    Senator Vitter. Aye.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 11, nays are 9.
    Senator Inhofe. The amendment is agreed to.
    From the Democrat side I would ask if there are any 
amendments to be brought up.
    Senator Boxer. Yes. Yes, I do. Am I recognized?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Thank you.
    So I have three amendments left. I am not going to offer 
Amendment No. 3, so you can take that off the list. And I am 
going to offer Amendment No. 2, if I might, Mr. Chairman.
    This amendment, I hope we can support this amendment 
because, at the end of the day, it doesn't do any harm to the 
goal, but we do worry about a precedent-setting nature here.
    In Section 4 we allow the importation of polar bears that 
were killed in Canada prior to the species being listed under 
the Endangered Species Act. So this provision in Section 4 is 
intended to be a one-time exemption for bears that were killed 
between the proposed listing and the final listing of the 
species.
    Many conservation groups who cover Republicans and 
Democrats are very concerned that the provision as it is now 
sets a precedent for future exemptions because it directly 
amends the Marine Mammal Protection Act. So all we do in our 
amendment is say remove the provision from the Marine Mammal 
Protection Act, but keep it in the bill that there is this one-
time allowance done.
    So I think if you support allowing these bears to be 
brought in, but you don't want to amend the Marine Mammal 
Protection Act to set a precedent, you would support this, and 
that is why I offer it up. And I tried to get some agreement; I 
could not reach agreement with my colleague on it, so I would 
offer this up. I think it is important not to set a precedent 
by amending the Marine Mammal Protection Act but just say, 
sure, this is a one-time carve-out, it is fine.
    [The text of Amendment No. 2 to S. 659 offered by Senator 
Boxer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Boxer.
    I would only observe that the current language was a result 
of lengthy negotiations with the Fish and Wildlife. They are 
supportive of the language. In fact, in a letter to the 
Committee from the Service dated April 15th of this past year, 
the Service thanks Senator Sullivan for incorporating their 
comments into the sportsmen's package.
    I would urge a no vote.
    Senator Boxer. Can I be clear on something? They do not 
support this. They have taken no position on it. So let's be 
clear. They would much prefer that we didn't amend the Marine 
Mammal Protection Act. They have told us they do not support 
it. They did give their comments. That is my understanding.
    Senator Inhofe. Well, I would only read from their letter.
    Senator Boxer. Sure.
    Senator Inhofe. In Section 4, permits and so forth, the 
Administration supports this provision and thanks Senator 
Sullivan for incorporating the services, so forth.
    Senator Boxer. OK. We hadn't seen that. We'll take it back.
    Senator Inhofe. Ask that this be made a part of the record.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Boxer. I apologize. We hadn't seen that. What date 
was that?
    Senator Inhofe. April 15th.
    Senator Boxer. Oh, thank you. So that got by me. OK. Well, 
I stand with the amendment. I still feel that it is better not 
to change the Marine Mammal Protection Act.
    Senator Inhofe. You want to move your amendment?
    Senator Boxer. I do. I move it.
    Senator Inhofe. Is there a second?
    Senator Gillibrand. Second.
    Senator Inhofe. There is a second.
    Senator Boxer. A roll call, please.
    Senator Inhofe. Sure.
    The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Cardin?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey?
    Senator Markey. Aye.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, nays are 11.
    Senator Inhofe. And the amendment is not agreed to.
    On the Republican side? Senator Crapo.
    Senator Crapo. Mr. Chairman, I call up the Crapo Amendment 
No. 1. And Senator Cardin wanted to be an original co-sponsor 
and asked me to ask for unanimous consent on his behalf to add 
his name as an original co-sponsor.
    Senator Inhofe. Without objection.
    Senator Crapo. This amendment is a version of a bill that I 
have long worked with Senator Cardin on. The legislation, the 
National Fish Habitat Conservation Act, is modeled after other 
successful conservation programs, such as the North American 
Wetlands Conservation Act.
    The amendment will codify the National Fish Habitat Board 
and National Fish Habitat Partnerships Programs established 
through a State-led public-private partnership and housed 
within the U.S. Fish and Wildlife Service. The Board approves 
fish habitat partnerships, evaluates local projects supported 
by the projects, and provides funding recommendations to the 
Secretary of Interior ensuring the projects funded meet 
strategic fish habitat objectives through projects that will be 
permanently led by local communities and the State fish and 
wildlife agencies.
    The new version of this legislation allows Congress to 
further refine how this program operates. For example, this 
improved fish habitat bill would add more diverse 
representation onto the current NFH Board, broadening the input 
of stakeholders and including private landowners, organizations 
from agriculture and private industry sectors, more diverse NGO 
representation, and clarified Federal agency representation.
    I ask unanimous consent to pass this important legislation.
    [The text of the amendment to S. 659 offered by Senator 
Crapo follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. By unanimous consent?
    OK, Senator Boxer.
    Senator Boxer. Yes. I would like to put my full statement 
in the record in support of this. I want to compliment my 
friend and Senator Cardin. Just to sum it up, I think this 
amendment fosters better science, communication, and 
partnership to unite diverse stakeholders and focus voluntary 
action on conserving priority habitats. And I love the public-
private partnership, it is so workable, and I want to again 
thank my friend.
    [The prepared statement of Senator Boxer follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Inhofe. Thank you.
    Is there objection to the unanimous consent request?
    Without objection, it is adopted.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much. My 
amendment will strike out all of the controversial sections of 
S. 659, leaving only the sections with true bipartisan support. 
This is Markey No. 1.
    So it will leave Section 7, the North American Wetlands 
Conservation Act, and Section 8, the Multinational Species 
Conservation Funds Reauthorization, because we all agree that 
the fiscally responsible North American Wetlands Conservation 
Act conserves North America's wildlife and wetlands, while 
producing numerous environmental, recreational, water quality, 
and economic benefits. Over the life of this competitive 
program, the North American Wetlands Conservation Act grants 
have leveraged non-Federal matching contributions at a rate of 
3 to 1. Among the program's biggest supporters is Ducks 
Unlimited, one of the Nation's largest sportsmen's groups.
    And we all agree that the Multinational Species 
Conservation Funds Reauthorization provides crucial support for 
the protection of the planet's most imperiled species, 
including elephants, rhinoceroses, tigers, great apes, and 
marine turtles, which, as were previously discussed here, are a 
special concern to some of our closest constituents. This 
program promotes international collaboration, while bolstering 
the goodwill of the United States and organizations seeking to 
assist the responsible development of emerging economies around 
the world. This program is also notable for its success in 
leveraging matching funds at a rate of 2 to 1.
    So my amendment supports the economies and conservation 
efforts which depend on these critical programs. It would also 
speed action on this legislation to the Senate floor, and I 
urge support of my amendment, Mr. Chairman.
    [The text of the amendment to S. 659 offered by Senator 
Markey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Markey.
    I would observe that the amendment would strike five 
sections of the bill, leaving only the short title and two 
provisions. It also strikes language that has been negotiated 
and agreed to by the Administration and by others, so I would 
urge a no vote.
    Others want to be heard?
    Senator Boxer. Yes.
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Well, the reason I am supporting this, and I 
thank my friend for doing it, is he is trying to get this bill 
done. We have been trying to get this bill done for a long 
time. There are Democrats and Republicans that want to get it 
done, but every time we try to do it there are poison pills on 
it and it just makes it impossible, and at the end of the day 
we all look at each other and say another missed opportunity.
    I think what my friend is trying to do is get a situation 
here where we can go to the bill, and then if there are agreed-
upon additions, we can do that in an amendment. I am sure my 
friend would work actively, so I know the handwriting is on the 
wall, if you will, but I just wanted to speak out in strong 
support, because it is not a negative thing to do, it is a 
positive thing to do, and I wanted to make sure I was on the 
record saying that.
    Senator Inhofe. Thank you.
    Senator Markey. Mr. Chairman.
    Senator Inhofe. Senator Markey.
    Senator Markey. I can accept a voice vote on this.
    Senator Inhofe. All right.
    You have heard the motion. Is there a second?
    Senator Gillibrand. Second.
    Senator Inhofe. All in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Inhofe. The noes appear to have it. The noes do 
have it. It is not agreed to.
    On the Republican side, who seeks recognition? Senator 
Rounds.
    Senator Rounds. Thank you, Mr. Chairman. First of all, I 
would like to just say thank you to you and to Senator Sullivan 
for the work that you have done on this bill so far.
    Senator Inhofe. Thank you.
    Senator Rounds. I would like to call up the Rounds 
Amendment No. 1 and ask for its consideration. This amendment 
is designed to ask that more information be provided to 
individuals who are being asked or are considering making an 
easement to the U.S. Fish and Wildlife Service or to another 
Federal agency. What this says is that all of the options 
available, not just permanent easement options, but 
intermediate easement options, should also be considered.
    I was surprised to find out that there are multiple types 
of easements available right now. But most landowners aren't 
being made aware of them. So what this does is it simply says 
that, first of all, all of the options will be made available 
that are available under the Federal programs today and, second 
of all, that there will be a documentation that will go with 
this process assuring that this information has been provided. 
The hope is that we will get more owners, landowners to 
actually agree to conservation easements in the future if it 
doesn't have to be one size fits all of a permanent easement 
only. Our goal is to have more participation, but clearly more 
transparency and more options for those landowners to 
participate in these conservation programs.
    Thank you, Mr. Chairman.
    [The text of the amendment to S. 659 offered by Senator 
Rounds follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Rounds.
    It is surprising to me that people are not aware of what 
goes along with these easements.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, I support the intent of this 
amendment. I do think it needs additional work, and if my 
colleagues want to voice vote it out today, it is fine, and 
perhaps there is a way we can get to a place where we agree. 
But I do support the intent.
    Senator Inhofe. You move your amendment?
    Senator Rounds. I would move the amendment, Mr. Chair.
    Senator Inhofe. Is there a second?
    Senator Vitter. Second.
    Senator Inhofe. There is a second.
    All those in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it and the amendment is 
agreed to.
    On the Democrat side? Senator Boxer.
    Senator Boxer. This could be the last amendment on our 
side. It looks like Senator Barrasso has one.
    I would call up Boxer Amendment No. 4.
    Senator Inhofe. Boxer Amendment No. 4.
    Senator Boxer. And this amendment strikes Section 6, which 
prevents the Corps from implementing restrictions on the use of 
firearms at its facilities. Corps projects are managed for many 
purposes, including navigation, hydropower, water supply, fish 
and wildlife conservation, recreation, and flood risk 
management. Many of these projects, such as lock hydroelectric 
dams and levees are critical infrastructure with significant 
homeland security concerns. Significant. As a matter of fact, 
they are in many ways targets for terrorism.
    Protection of these structures is of the highest priority, 
so allowing individuals to carry loaded firearms near these 
facilities has national security implications. The Corps should 
not be prohibited from implementing common sense restrictions 
to protect critical infrastructure. They should be encouraged 
to protect the infrastructure. In addition, the Corps does not 
have its own law enforcement officers, like the National Park 
Service or Fish and Wildlife. Therefore, significantly 
expanding the ability of the public to carry firearms prevents 
a significant public safety and law enforcement challenge.
    Under the current Corps regulations, visitors are already 
allowed to possess loaded firearms for hunting or for use at 
established firing ranges on Corps lands. So anybody who says 
what I am trying to do impacts hunters, absolutely not. I 
strongly support their right to bring on a loaded firearm for 
that purpose. But my amendment codifies existing Corps 
regulations, ensuring uniform application of Corps gun 
regulations at all Corps facilities without endangering our 
Nation's critical infrastructure or other users of Corps 
recreational sites, and I would argue not interfering with the 
Second Amendment.
    My amendment makes clear that sportsmen can bring their 
firearms to Corps facilities for hunting and sport shooting. I 
just, again, want to say to my colleagues if you go out on the 
street and ask an average person do you support being able to 
hunt with a loaded firearm on Corps land, they would say yes. 
And we do allow that; my amendment allows that. But do you 
support allowing folks who you have no idea who they are to get 
access to where there are dams, flood control, serious 
infrastructure where you have no armed security? Honestly, 
really, really? I think people would say that makes no sense at 
all.
    So I think this is common sense legislation. Yes for the 
people who are shooting. After all, it is a sportsmen act, it 
is not a let the terrorists in with their firearms near 
infrastructure act. I hope we will support this.
    [The text of Boxer Amendment No. 4 to S. 659 offered by 
Senator Boxer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Thank you, Senator Boxer.
    I would observe that the language would put restrictions on 
where and how law-abiding citizens can carry their guns. The 
language overlooks the fact that many people carry the guns for 
their own safety. You know, if a grizzly bear attacks, they 
don't know whether it is loaded or not, but an unloaded gun 
doesn't do much good. So I would urge a no vote.
    Others want to be heard?
    Senator Crapo. Yes, Mr. Chairman.
    Senator Inhofe. Yes, Senator Crapo.
    Senator Crapo. Yes, Mr. Chairman. I agree. First of all, I 
think a misimpression has been created. The fact is the 
language in the bill does allow the Corps to protect 
infrastructure in terms of not allowing firearms to be brought 
onto infrastructure facilities; and I think that is very 
important to note because that is simply a mischaracterization 
of what the language would do. The language basically says that 
an American has a right, under the Second Amendment, to bear 
arms for hunting and for recreation and for self-defense, as I 
think most Americans would willingly support.
    One court recently has ruled the current approach by the 
Corps to be unconstitutional, which I believe is correct. This 
simply says that the Corps' current policy of saying that all 
of their land is closed unless it is specifically allowed to be 
opened by some kind of permit from the head of the Corps, is 
not the way to approach the issue. And again I reiterate that 
the infrastructure issue that has been raised is a red herring, 
if you will. There is already property authority for the agency 
to protect at critical infrastructure.
    Senator Boxer. If I could just say, Mr. Chairman, the Corps 
disagrees with that. They don't feel that they do. And if you 
had a big group, after all, you support everybody's right to 
carry a gun on there, including terrorists. They are going to 
get guns. So they are going to walk in. Let's say they meet up 
and there is a few people protecting a facility and they shoot 
it up and start a flood.
    Look, if you feel you need a gun to protect yourself, you 
can go to the Corps and protect that permit. If you feel that 
you are going to a place that there are a lot of grizzlies, you 
can go to the Corps and get that permit. We do not say you 
can't get a permit. All we are saying is that it is dangerous 
to public security to allow perhaps terrorists or anybody else, 
bad actors, from getting on there. And if you are a good actor, 
what is the problem? You know, in my State you can get a permit 
to carry a gun. Nobody is taking away anybody's guns. But to 
sit here and say, oh, there is plenty of security, that is 
great. It is just not true. And this critical infrastructure, 
they are hard targets. Let's be clear, they are hard targets.
    So I don't know, again, you know, somebody said why can't 
you get anything done in the Senate, and I say, well, first of 
all, it is not true, we get some things done, and I always 
point to our ability to work together. But then I say the 
truth. We see the world in different ways now, Republicans and 
Democrats. We really see the world in different ways. If you 
can sit here and think that it is for public safety that we 
allow anyone and anyone to carry a loaded gun near a facility 
that if it is attacked could wreak havoc on our people, I don't 
see it that way. You look at me and think what's wrong with 
her. I look at you and say what is wrong with you. This is 
serious.
    I am not mad about it at all because it is just a different 
way of seeing the world. My belief is you can protect the 
Second Amendment and have common sense laws, and I think that 
is where Americans are. They are not one side or the other, 
they are straight down the center; protect my right, but also 
common sense. And if you are going to grizzly country, and you 
go to the Corps and say, look, I really need to be able to load 
my gun, they are going to give you a permit. They are not going 
to take away your right. So I just think that this amendment is 
important.
    Again, look, we are going to have this debate on the floor. 
It is going to be very interesting, if this bill ever comes to 
light. I doubt that it will. I think there is going to be way 
more than 40 people who say don't even bring it up. But you are 
loading this thing up. You are loading it up with lead in the 
water; you are loading it up with lead from guns; you are 
loading it up with security threats. It is just remarkable what 
you are doing to a bill that ought to be bipartisan. I tried so 
hard. I love your staff; we work with them. We love them. We 
couldn't get anywhere on this stuff.
    And it is just sad to me that a sportsmen's bill can't get 
bipartisan support when, if it was strictly a sportsmen's bill, 
fine. But, oh no, we have all this stuff about guns and 
allowing people to dump garbage in the water that is poison. 
What are we doing? Just stick to the sportsmen's deal, as 
Senator Markey suggested. Oh, no, we are going to have this 
ideological thing, and, frankly, it won't even get to that 
because I am going to go down on the floor after this passes, 
which it will, and say a remarkable thing happened in the 
Environment Committee: we are endangering the people of this 
Country.
    And I am going to do everything in my power, stand on my 
feet, do whatever I have to do to stop it unless we can come to 
some agreement to withdraw some of this stuff, take it up 
separately. Let's have a fight on bringing guns where there is 
infrastructure. Fine, we can do that. We can ask the Homeland 
Security people how they feel. We can talk about how the Humane 
Society feels about some of the things you are doing. That is 
fine. Why not try to take out the controversy? But, no, we keep 
adding it. And this amendment is an effort to get us to take 
out this controversy because this isn't going anywhere, and 
that is not good for the Country.
    Senator Inhofe. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman. I wanted to dwell 
a little bit on the point that my colleague from Idaho is 
making about the exemption in the underlying language, which 
says the Secretary of the Army shall not promulgate or enforce 
any regulation that prohibits an individual from possessing a 
firearm, including assembled or functional firearm, in any area 
open to the public; and then it has an exception: other than a 
Federal facility as defined in Section 930(g) of Title 18. I 
think that is the provision that you are referring to.
    I have received a lot of letters on this, and the concern 
with this is that that leaves a little bit of a vague 
situation. For example, the definition referred to is ``a 
building or part of a building owned or leased by the Federal 
Government where Federal employees are regularly present for 
the purpose of performing their official duties.'' So people 
have envisioned, for example, the Bonneville Dam, where the 
grounds are open to the public, they have a sturgeon pond, they 
have salmon rearing. But if only the building is the exception, 
then essentially armed individuals coming to the door of the 
building would be exempted. But it poses that concern of 
domestic terrorism of a group, perhaps a group financed, 
organized by enemies abroad, bringing guns right to the door of 
the building, and yet they would still be protected by the 
language that is in this because they would not have yet 
entered the building. And the language is specifically the 
building, not the grounds of the facility.
    So that confusion has led to a lot of letters from the 
public. I think we should work to clarify that piece. The 
grizzly concern is one concern separate from an assault team at 
the door of a Federal facility.
    Senator Inhofe. OK, others want to be heard?
    Senator Boxer.
    Senator Boxer. No, we can just vote.
    Senator Inhofe. Do you want to move it?
    Senator Boxer. I would move.
    Senator Inhofe. Is there a second?
    Senator Gillibrand. Second.
    Senator Inhofe. Do you request a roll call?
    Senator Boxer. I do.
    Senator Inhofe. OK, the Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. No.
    The Clerk. Mr. Booker?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Boozman?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Boxer?
    Senator Boxer. Aye.
    The Clerk. Mrs. Capito?
    Senator Capito. No.
    The Clerk. Mr. Cardin?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. No.
    The Clerk. Mrs. Fischer?
    Senator Inhofe. No by proxy.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. Aye.
    The Clerk. Mr. Markey?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds?
    Senator Rounds. No.
    The Clerk. Mr. Sanders?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Sessions?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Vitter?
    Senator Vitter. No.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. No by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. No.
    The Clerk. Mr. Chairman, the yeas are 9, the nays are 11.
    Senator Inhofe. The amendment is not agreed to.
    Senator Barrasso.
    Thank you very much, Mr. Chairman. I would like to call up 
Barrasso Amendment No. 1 to S. 659. This amendment would delist 
the grey wolf in Wyoming and the Great Lakes under the 
Endangered Species Act. It also protects the delisting from 
further judicial review, similar to the judicial protections 
already granted by Congress to the States of Montana and Idaho.
    This amendment is one of many legislative efforts I am 
going to continue to pursue until Wyoming's wolf management 
plan is protected and fully implemented. Wyoming honors its 
commitment. We have put together a solid and working plan to 
protect the State's wolf population. Even in this Committee, 
Dan Ashe, who is the Director of the U.S. Fish and Wildlife 
Service, stated from that very table that he agrees that wolves 
should be delisted in Wyoming. It is time to move forward, to 
recognize the science, focus on our scarce taxpayer resources 
on truly imperiled species, and I move the amendment.
    [The text of the amendment to S. 659 offered by Senator 
Barrasso follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Inhofe. Is there a second?
    Senator Crapo. Second.
    Senator Inhofe. Do you want a roll call?
    Senator Boxer. May I speak briefly?
    Senator Inhofe. Senator Boxer.
    Senator Boxer. Mr. Chairman, this amendment would 
legislatively remove endangered species protections for grey 
wolves in Wyoming and the Great Lakes. It would overturn two 
Federal court decisions that require the protection of grey 
wolves in these areas and, as I understand it, according to 
Senator Barrasso, he would preclude the courts from getting 
involved in it in the future.
    Now, the Federal courts were clear that the grey wolves 
deserve protection under the Endangered Species Act. Decisions 
about protecting endangered species should be made according to 
the law. If you don't like the law, change it, but that is the 
law. We shouldn't be engaging in this as politicians. If we 
want to change the law, change it. But it is a law that was 
passed by our predecessors, and it is a dangerous precedent to 
undermine the Endangered Species Act.
    The Fish and Wildlife Service, as I understand it, did 
approve the Wyoming law, so that wasn't the problem. The 
problem was they were sued by groups such as the Humane 
Society. I don't know the exact groups. Is that right? Probably 
Defenders of Wildlife. Those groups, similar to them. And the 
court said uh-uh, you know, you are wrong. They said to the 
Fish and Wildlife Service you are wrong. So you are trying to 
shut down the courts from getting involved in protecting a law 
and protecting the wolves. I think it is a dangerous precedent.
    I do understand the frustration. My State has had 
situations where they have drawn up their own conservation 
plans and they were judged inadequate once or twice by the 
bureaucrats here, and the courts in another case. It is 
frustrating. But, in fact, you know, when we act to protect 
endangered species, we are doing it in accordance with the law. 
And as long as the law stands, it is one of the most popular 
laws in the Country, we have to abide by it. So I think this is 
a bad precedent; interferes with people's rights and the 
courts, etcetera, and interferes with the wolf, and I would 
urge a no vote.
    Senator Inhofe. Thank you, Senator Boxer.
    Others who want to be heard?
    Senator Barrasso. I will just conclude if everyone else is 
finished, Mr. Chairman.
    Senator Inhofe. Sure.
    Senator Barrasso. Just to say that it is because of endless 
litigation that forced Congress to actually act and change the 
law with regard to Montana and with regard to Idaho. 
Realistically, you take a look at the map of where Idaho is, 
Wyoming, Montana, these are just imaginary lines that are drawn 
there. So it is the same species in all three locations. This 
amendment is just going to provide Wyoming the same legal 
protections that this Congress has provided to Montana and to 
Idaho to be able to control the management and recovery of 
wolves in their States, and not have that approval of the 
management plan be challenged again and again in court. I 
believe it is an issue of fairness. Wyoming should have the 
same legal protections as Montana and as Idaho.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso. Do you move 
your amendment?
    Senator Barrasso. I move the amendment.
    Senator Inhofe. Second?
    Senator Crapo. Second.
    Senator Inhofe. Do you wish to have a roll call?
    Senator Barrasso. That is not necessary.
    Senator Inhofe. OK, all in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [Chorus of noes.]
    Senator Inhofe. The ayes appear to have it. The ayes do 
have it. The amendment is agreed to.
    Other amendments on 659?
    Senator Gillibrand.
    [Remarks off microphone.]
    Senator Inhofe. No, what we are going to do now, we don't 
have a quorum for a final passing. We will conclude our 
amendments on this bill. But I do want to go to two other bills 
I think we can dispose of pretty quick. That would be, first, 
the Great Lakes Restoration Initiative and, second, the Lake 
Tahoe.
    Senator Gillibrand. I have one for the Great Lakes.
    Senator Inhofe. Yes.
    Senator Merkley.
    Senator Inhofe. Let me start off. I do want to call up S. 
1024, the Great Lakes Restoration Initiative, the markup 
vehicle.
    Senator Merkley.
    Senator Merkley. Mr. Chairman, I wanted to make a comment 
before we shifted to a new bill, if I could indulge the 
Committee.
    Senator Inhofe. Oh, I am sorry. Ask unanimous consent. Your 
comments will be reflected prior to bringing up this bill.
    Senator Merkley. Thank you very much. Senator Cardin put 
forward an amendment that he chose not to have a vote on, but 
it was providing the U.S. Fish and Wildlife Service with the 
same power that the national parks have to recover damages from 
individuals that damage a wildlife refuge. And because this is 
so much an issue in Oregon right now, I just wanted to make a 
brief comment on that topic. People from outside the State have 
come and occupied the wildlife refuge. There has been damage to 
the buildings and to the fences. The sheriff from Harney County 
has said you all came here to say you wanted to support the 
community, and the best way you can support the community is to 
go back home.
    Last night there was a community meeting held and the chair 
of the county commission, who is referred as a county judge, 
said it is time for you to go home. Judge Grasty said to Bundy, 
vowing to meet with him any time, any place outside of the 
county. And the community, now, this is a very rural, 
conservative community, joined a chant that said, go, go, go. 
It is a message that they have had repeatedly.
    The reason this is relevant to the amendment that was 
proposed is that this very rural county with very few 
resources, because most of the land is federally owned and they 
don't get property taxes on it, is spending about $75,000 a day 
for the standoff, and the county commissioners, and 
specifically the county judge that is chair of the county 
commission, has noted that those are costs they simply can't 
bear and they should have a mechanism to be able to recover 
these costs.
    So I will just conclude there saying I support the local 
elected leaders, the sheriff and the county judge and their 
belief that the best way to resolve this is for the out-of-
State individuals to return to their home States so that there 
is no violence. The conversation can continue about the 
challenges in ranching and leasing of Federal property. That 
conversation is important and should continue. But, also, the 
county is really in a tough spot here, not only in terms of the 
costs on a daily basis, but also in terms of the enormous 
friction in which individuals have people from outside the 
State parking in front of their homes, harassing various 
members of the community and that the community hopes this can 
be quickly and peacefully resolved.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Merkley.
    We will now turn to S. 1024, the Great Lakes Restoration 
Initiative. We also begin with calling up the text, as amended. 
It was circulated yesterday to everyone's agreement.
    The Great Lakes Restoration Initiative was authorized for 1 
year during our consolidated Appropriations Act. This 
substitute extends the authorization for 5 years.
    [The text of S. 1024 follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Are there amendments? Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. I don't plan 
to offer my amendment, but I want to talk about the bill 
because I am the only member on the Committee that actually 
represents a Great Lakes State. So I want to speak briefly 
about this amendment and the underlying bill.
    I appreciate your willingness and the willingness of your 
staff to address many of our concerns with the substitute 
amendment; however, it is unfortunate that we have not been 
able to come to an agreement on the authorization level for 
this bill. My amendment would have ramped up the authorization 
by $25 million over the next four fiscal years, to $400 million 
in 2020, to help us meet the critical needs of the Great Lakes. 
This would address toxic contamination, restore water quality, 
and protect our water against the real threat of invasive 
species that harm our environment and economy.
    While I will not oppose reporting of this bill out of 
Committee, I hope that, when this bill does move forward to the 
floor, we can work with other Great Lakes Senators in a 
bipartisan way to come to an agreement on the authorization 
level that adequately meets the needs of the Great Lakes.
    So I ask unanimous consent to include in the record signed 
by Healing Our Waters Great Lakes Coalition, which consists of 
125 environmental, conservation, and recreational 
organizations, all of which support my amendment. Members of 
this Coalition include the National Parks Conservation 
Association, Alliance for the Great Lakes, Ducks Unlimited, 
Trout Unlimited, Audubon Society, and many others. They 
understand how important it is that we can provide a strong 
Federal commitment to the Great Lakes.
    Senator Inhofe. OK. Without objection, so ordered.
    Senator Gillibrand. Thank you.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Inhofe. And the same thing. We need one more member 
here to have a quorum. One is on his way and we are going to 
hope to be able to dispose of these.
    We will now turn S. 1724, the Lake Tahoe Restoration Act. 
The only amendment offered is an amendment by Boxer and Inhofe. 
This amendment provides a technical fix to the underlying bill 
to ensure that it is consistent with our highway bill that we 
passed.
    Senator Boxer.
    Senator Boxer. Yes. No need for me to specify. You already 
said this is such an important bipartisan bill, including our 
amendment, it is Heller, Feinstein, Boxer, Reid. It is 
important.
    If you haven't ever seen Lake Tahoe, I hope you take the 
chance to do it. It is an incredible lake. And you just look at 
that lake and you just wonder how clear it is. It is so deep 
and so beautiful, and surrounded by these mountains. And I 
would say thank you in advance because the Committee has been 
so kind to us on this particular bill, and I would urge an aye 
vote.
    Should we include the amendment? Should I ask unanimous 
consent that the amendment become part of the bill?
    Senator Inhofe. Yes. Without objection, so ordered.
    Senator Boxer. And then I would urge an aye vote.
    [The text of the amendment to S. 1724 offered by Senators 
Inhofe and Boxer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Inhofe. And we do have 11, with Senator Sessions 
having arrived.
    OK, we now have 11 members, as soon as Senator Sessions 
sits down.
    We will go back now to the final vote on S. 659, the 
Sportsmen's Act. Seeing no further members wishing to seek 
recognition or offer amendments, is there a motion to accept 
the underlying text and report the legislation, as amended, 
favorably to the Senate?
    Senator Barrasso. So moved.
    Senator Inhofe. Is there a second?
    Senator Capito. Second.
    Senator Inhofe. The Clerk will call the roll.
    The Clerk. Mr. Barrasso?
    Senator Barrasso. Aye.
    The Clerk. Mr. Booker?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Boozman?
    Senator Boozman. Aye.
    The Clerk. Mrs. Boxer?
    Senator Boxer. No.
    The Clerk. Mrs. Capito?
    Senator Capito. Aye.
    The Clerk. Mr. Cardin?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Carper?
    Senator Boxer. Aye by proxy.
    The Clerk. Mr. Crapo?
    Senator Crapo. Aye.
    The Clerk. Mrs. Fischer?
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand?
    Senator Gillibrand. No.
    The Clerk. Mr. Markey?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Merkley?
    Senator Merkley. No.
    The Clerk. Mr. Rounds?
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Sessions?
    Senator Sessions. Aye.
    The Clerk. Mr. Sullivan?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Vitter?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Whitehouse?
    Senator Boxer. No by proxy.
    The Clerk. Mr. Wicker?
    Senator Inhofe. Aye by proxy.
    The Clerk. Mr. Chairman?
    Senator Inhofe. Aye.
    The Clerk. Mr. Chairman, the yeas are 12, the nays are 8.
    Senator Inhofe. The ayes have it and the legislation is 
reported favorably to the Senate.
    We will now move to S. 1024, the Great Lakes Restoration 
Act. Is there a motion to accept the underlying text? We have 
already done that.
    Senator Gillibrand. I ask for a voice vote.
    Senator Inhofe. OK, there is a request for a voice vote. Is 
there objection to a voice vote on S. 1024? No objection.
    Is there a motion to accept S. 1024?
    Senator Gillibrand. I move to accept 1024.
    Senator Inhofe. All right. Is there a second?
    Senator Capito. Second.
    Senator Inhofe. Those in favor, say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. The ayes have it in the opinion of the 
Chair and the legislation will be reported favorably to the 
Senate.
    We now turn to S. 1724, Lake Tahoe Restoration Act.
    Senator Boxer. So moved.
    Senator Inhofe. Is there a second? As amended. Senator 
Boxer moves acceptance as amended. Is there a second?
    All those in favor say aye.
    [Chorus of ayes.]
    Senator Inhofe. Opposed, no.
    [No audible response.]
    Senator Inhofe. In the opinion of the Chair, the ayes have 
it and the amendment is agreed to.
    [Text of S. 659, In the Nature of a Substitute:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Finally, the authority to make technical and confirming 
changes. I ask unanimous consent that the staff have authority 
to make technical and conforming changes to the measure 
approved today. Without objection, so ordered.
    I would observe, Senator Gillibrand, that we did pass your 
bill before you came here. Was there any comment you wanted to 
make about that?
    Senator Gillibrand. No. I will submit my comments for the 
record. Thank you very much.
    Senator Inhofe. Very good.
    With that, the business meeting is concluded. Thank all of 
you for staying here.
    [Whereupon, at 11:49 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
                                 <all>
</pre></body></html>
